No. 19-153
In the

Supreme Court of the United States
YASMEEN DANIEL, Individually, and as
Special Administrator of the Estate of
Zina Daniel Haughton,
Petitioner,
v.
ARMSLIST, LLC, an Oklahoma Limited
Liability Company, BRIAN MANCINI and
JONATHAN GIBBON,
Respondents.
On Petition for a Writ of Certiorari
to the Supreme Court of Wisconsin

REPLY BRIEF
Jonathan E. Lowy
Brady
840 First Street, NE,
Suite 400
Washington, DC 20002
(202) 870-8100
Patrick O. Dunphy
Brett A. Eckstein
Cannon & Dunphy, S.C.
595 North Barker Road
P.O. Box 1750
Brookfield, WI 53045
(262) 780-7188

Samantha J. K atze
Counsel of Record
Jacqueline C. Wolff
Molly K. Wyler
Manatt, Phelps & Phillips, LLP
7 Times Square
New York, New York 10036
(212) 790-4500
skatze@manatt.com

Counsel for Petitioner
292037

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
I.

Armslist Phrases The Issue Incorrectly . . . . . . . 2

II. The Law Applying The CDA Is Anything
	But Uniform  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
III. The Allegations In The Complaint Are
About Armslist’s Own Intentional And
Negligent Conduct And Content  . . . . . . . . . . . . . 8
IV. The Wisconsin Supreme Court Failed
To Consider This Court’s Federalism
Principles . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
V.	The CDA Has A Profound Impact On The
Everyday Lives Of All And Its Meaning
Should Be Resolved . . . . . . . . . . . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Cipollone v. Liggett Group,
505 U.S. 504 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
City of Chicago v. Stubhub!, Inc.,
624 F.3d 363 (7th Cir. 2010) . . . . . . . . . . . . . . . . . 4, 7, 8
Doe v. Internet Brands, Inc.,
824 F.3d 846 (9th Cir. 2016) . . . . . . . . . . . . . . . . . . . 3, 7
Erie Ins. Co. v. Amazon.com, Inc.,
925 F.3d 135 (4th Cir. 2019) . . . . . . . . . . . . . . . . . . . . 11
Fair Housing Council of San Fernando Valley v.
Roommates.com, LLC,
521 F.3d 1157 (9th Cir. 2008) . . . . . . . . . . . . . . . . . . 4, 5
Grossman v. Rockaway Twp.,
D o c k e t N o . M R S - L - 1 17 3 - 1 8 , 2 0 1 9
N . J . S u p e r. U n p u b . , L E X I S 1 4 9 6
(N.J. Superior Ct. June 10, 2019)  . . . . . . . . . . . . . . . 11
HomeAway.com, Inc. v. City of Santa Monica,
918 F.3d 676 (9th Cir. 2019)  . . . . . . . . . . . . . . . . . . . 3, 7
J.S. v. Village Voice Media Holdings, L.L.C.,
184 Wash. 2d 95 (2015) . . . . . . . . . . . . . . . . . . . . . 3, 5, 6
Jane Doe No. 1 v. Backpage.com, LLC,
817 F.3d 12 (1st Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . 3

iii
Cited Authorities
Page
Maynard v. Snapchat, Inc.,
346 Ga. App. 131, 816 S.E.2d 77 (2018) . . . . . . . . . . . 11
Medtronic, Inc. v. Lohr,
518 U.S. 470 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Nemet Chevrolet Ltd. v.
Consumeraffairs.com, Inc.,
591 F.3d 250 (4th Cir. 2009) . . . . . . . . . . . . . . . . . . . . . 5
Oberdorf v. Amazon.com Inc.,
930 F.3d 136 (3d Cir. 2019) . . . . . . . . . . . . . . . . . . . . . 11
Oberdorf v. Amazon.com Inc.,
936 F.3d 182 (3d Cir. 2019) . . . . . . . . . . . . . . . . . . . . . 11
Shiamili v.
Real Estate Group of New York, Inc.,
17 N.Y.3d 281 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Zeran v. America Online, Inc.,
129 F.3d 327 (4th Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 4
Statutes and Other Authorities
47 U.S.C. § 230  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim

1
Yasmeen’s Petition demonstrated why this Court
should grant review.1 First, in today’s Internet-driven
economy, a uniform construction of the CDA in accord
with its plain meaning, congressional intent, and this
Court’s principles of federalism presents an important
issue of national concern. Second, review is needed to
resolve disagreement between federal courts of appeal
and state courts of last resort regarding the degree of
protection the CDA affords website owners and operators
for their own negligent and intentional acts. Finally,
review is warranted because the Wisconsin Supreme
Court’s interpretation of the CDA, by providing sweeping
protection to website owners and operators for their own
negligent and intentional conduct and content, creates a
“lawless no man’s land” on the Internet – immunizing
dangerous conduct that would form the basis of a claim
if performed outside of cyberspace, wholly at odds with
Congressional intent and the statutory language.
To support its request that this Court not review
Yasmeen’s case, A rmslist misconstrues the issue
presented, manufactures a false uniformity among
the courts, mischaracterizes Yasmeen’s allegations,
disregards the statute’s plain language and principles of
federalism, and ignores the ramifications of this Court
not taking this Petition. Nothing in Armslist’s opposition
changes the fact that there are conflicts among lower
courts that only this Court can resolve.
Respectfully, this Court should grant review.
1. Capitalized terms not otherwise defined herein have
the meanings ascribed to them in Yasmeen’s Petition for Writ of
Certiorari filed July 29, 2019 (the “Petition”).

2
I.

Armslist Phrases The Issue Incorrectly

In an effort to sidestep review, Armslist manufactures
an issue presented that is not an issue at all, i.e., whether
“the CDA permit[s] liability to be imposed under
Wisconsin law against the website based on publication of
the third-party seller’s information.” Opposition, i. There
is no question that the CDA bars treating a “provider…
of an interactive computer service…as the publisher
or speaker of any information provided by another
information content provider.” 47 U.S.C. § 230(c)(1). The
question posed here is whether the CDA permits a party
to seek liability against website owners or operators
based not on the publication of a third-party’s information,
but for the website owner’s or operator’s own conduct in
negligently and intentionally designing its site, and for its
own content. See Petition, i. The actual question presented
makes clear that the Wisconsin Supreme Court’s reading
of the CDA is contrary to a plain reading of the statute
and Congress’s intent.
II. The Law Applying The CDA Is Anything But
Uniform
Armslist argues that review is unwarranted because
the Wisconsin Supreme Court followed the so-called
“uniform law construing the CDA.” Opposition, 5. Not so.
Courts do not uniformly hold that the CDA preempts all
state law claims against website owners and operators
simply because they host content posted by third parties.
As the Petition demonstrates, courts are split on how to
treat claims that implicate a website owner’s own conduct
and content, regardless of whether such website also hosts
third-party content. Petition, 6-29.

3
Contrary to what Armslist contends, not all courts
provide immunity or protection for website owners and
operators for their own conduct or content, even where
the claims somehow involve the third-party content. Some
courts have rejected a “but for” test for CDA immunity,
allowing liability for a website operator’s own conduct
even where the cause of action would not have existed “but
for” third-party content. HomeAway.com, Inc. v. City of
Santa Monica, 918 F.3d 676, 682 (9th Cir. 2019) (“It is
not enough that third-party content is involved; Internet
Brands rejected use of a ‘but-for’ test that would provide
immunity under the CDA solely because a cause of action
would not otherwise have accrued but for the third-party
content.”); Doe v. Internet Brands, Inc., 824 F.3d 846, 853
(9th Cir. 2016).
In addition, as detailed in the Petition, the Washington
Supreme Court, the Seventh Circuit and the Ninth Circuit
have taken a more narrow approach to the CDA than
other courts, including the Wisconsin Supreme Court and
First Circuit. See Petition, 6-29. Armslist also ignores
the fact that the Wisconsin Supreme Court expressly
rejected the Washington Supreme Court’s opinion in J.S.
v. Village Voice Media Holdings, L.L.C., 184 Wash. 2d
95 (2015), creating a clear conflict between state courts
of highest resort. Petition, 19-20. Armslist also ignores
the conflicting decisions concerning the same website—
Backpage.com—from the Washington Supreme Court and
First Circuit. Jane Doe No. 1 v. Backpage.com, LLC, 817
F.3d 12, 21 n. 5 (1st Cir. 2016); J.S. v. Village Voice Media
Holdings, L.L.C., 184 Wash. 2d at 102; Petition, 19-20. 2
2. These divergent outcomes also confirm that there is
nothing “superfluous” about courts’ “commentary about the
defendant’s subjective state of mind.” Opposition, 14.

4
Armslist is wrong in suggesting that because
the Wisconsin Supreme Court adopted the material
contribution test, its decision is consistent with the
Ninth Circuit’s decision in Fair Housing Council of San
Fernando Valley v. Roommates.com, LLC, 521 F.3d
1157 (9th Cir. 2008). Opposition, 7-8. The Ninth Circuit
held that websites “designed to achieve illegal ends[,]”
would not be protected by the CDA. Roommates.com,
521 F.3d at 1167. Such a holding cannot be reconciled with
the Wisconsin Supreme Court’s decision that the CDA
requires dismissing Yasmeen’s claims despite allegations
that Armslist intentionally designed its website to
facilitate the sale of guns to individuals the law prohibits
from possessing firearms. See Petition, 21-22.
Armslist’s arguments concerning the specific conflicts
Yasmeen identifies in the Petition are similarly meritless.
Armslist dismisses the conflict between courts regarding
whether the CDA creates immunity and, if so, to what
extent, on the grounds that “Petitioner never explains
how this difference in labeling affected or could ever
affect this case.” Opposition, 10. But the impact of the
distinction between broad immunity to “any cause of
action[,]” Zeran v. America Online, Inc., 129 F.3d 327, 330
(4th Cir. 1997), as opposed to no “‘immunity’ of any kind[,]”
City of Chicago v. Stubhub!, Inc., 624 F.3d 363, 366 (7th
Cir. 2010), is obvious. Moreover, the difference between
the decisions of the Wisconsin Court of Appeals, which
took a narrow approach to the CDA, and the Wisconsin
Supreme Court, which took a broad approach, confirms
that the breadth of CDA immunity determined whether
Yasmeen’s case was permitted or barred, and will affect
others similarly if left unresolved. App. A and B. In any
event, the relevant question is not, as Armslist suggests,

5
whether this Court should give any effect to the CDA’s
preemption provision, but rather what is the appropriate
scope of that preemption, and does it immunize a website
owner or operator for its own negligent or intentional acts.
Regarding what it means to develop content,
Armslist asserts that Yasmeen “identifies no conflict in
the law” because “[s]he does not identify a single case
that has rejected the Ninth Circuit’s interpretation of
‘development’ or of 47 U.S.C. § 230(f)(3).” Opposition,
11. Armslist ignores the underlying issue that courts
have not used the same interpretation—the material
contribution test—and that no such “test” appears in the
statute. 47 U.S.C. § 230; Petition, 16-17; see also, Nemet
Chevrolet Ltd. v. Consumeraffairs.com, Inc., 591 F.3d
250, 257 (4th Cir. 2009) (“[W]e do not find Roommates.
com persuasive….”).
Even if there could be said to have been a “national
consensus” in earlier years construing the CDA, Shiamili
v. Real Estate Group of New York, Inc., 17 N.Y.3d 281, 288
(2011), the Petition makes clear that no such consensus
exists today. Petition at 6-29. The concurring opinion in
J.S. v. Village Voice Media Holdings, L.L.C. is instructive
on this point:
Rather than engaging with the plain language,
structure, and purpose of Section 230, Backpage.
com relies on the opinions of various federal
courts to conclude that the statute ‘provides
broad immunity for publishing content provided
primarily by third parties.’ The dissent adopts
this reading, asserting that it is following the
reasoning of a majority of the courts to consider

6
the question. The dissent is correct that it is
certainly not alone in taking this position—
many courts, particularly in the early years
after the statute was enacted, followed these
early decisions in applying an expansive view
of the statute. But it is difficult to reconcile an
expansive reading finding ‘broad immunity’
with the actual language of the statute, which
uses specific terms and does not include the
words ‘immunity’ or any synonym. Perhaps
recognizing this, the Ninth Circuit Court of
Appeals has retreated from its earlier cases
relied on by the dissent, joining other circuits
in refusing to treat section 230 in providing
broad immunity.
184 Wash. 2d at 108-109 (concurring).
Furthermore, there are conflicting court opinions
as to when and whether website design is “content,” and
whether it may be the basis of claims outside the CDA’s
purview. Petition, 18-19. Armslist is asking this Court to
uphold the Wisconsin Supreme Court’s ruling that website
design can never form the basis of a claim if “neutral tools”
are used and/or the design does not contribute materially
to the illegality of the third-party content. App. A, 12a-23a.
But the CDA’s language does not state that website design
is immune from liability, and “neutral tools” and “material
contributions” are nowhere to be found in the CDA. Nor
have all courts adopted the Wisconsin Supreme Court’s
interpretation. See Petition, 15-19. 3
3. Despite Armslist’s attempt to distract this Court, the
name of the website is not the issue, and this case is not about the

7
Armslist further argues that there can be no conflict
regarding the relevance of intent “because the provision
on which Armslist relies, 47 U.S.C. § 230(c)(1), contains
no ‘intent’ or ‘good faith’ requirement.” Opposition, 14.
However, Armslist merely highlights the shaky ground on
which the Wisconsin Supreme Court’s decision rests, for
Section 230(c)(1) fails to include any reference to “material
contribution” or “neutral tools.” Petition, 16-17. Armslist
cannot have it both ways. The fact that some courts
read intent into the statute, while others read material
contribution and neutral tools into the statute, while still
others do neither, makes clear that courts are confused
as to how to properly interpret the CDA and accordingly
need guidance from this Court. Petition, 15-22.
There is also nothing “inapposite” about Yasmeen’s
discussion of the “traditional editorial functions” test. See
Opposition, 15. The Wisconsin Supreme Court reversed
the Wisconsin Court of Appeals’ decision, which held
that the Wisconsin Circuit Court (and other courts) read
language into the CDA that Congress did not include when
they apply the “traditional editorial functions” test. App.
B, 60a-68a. There is conflict in the courts as to whether
this test should be used to interpret what it means to be
“treated” as a publisher or speaker. Petition, 22-29.
Moreover, A r mslist ’s discussion of Stubhub,
HomeAway and Internet Brands, misses the point.
Opposition, 16. In those cases, the courts take a far
narrower view of what it means for a claim to “treat an
right to bear arms. Opposition, 12-13. The hypothetical website
names used in the Petition are simply examples of the kinds
of websites that would be allowed to flourish if the Wisconsin
Supreme Court’s and similar decisions are left unchecked.

8
interactive service provider as a publisher or speaker
of third party content.” As the Seventh Circuit put it,
Section 230(c)(1) “limits who may be called the publisher
of information that appears online. That might matter
to liability for defamation, obscenity, or copyright
infringement[,]” but it is “irrelevant” to other types of
claims. City of Chicago v. Stubhub!, Inc., 624 F.3d at
366. Armslist cannot change the fact that courts take
different and inconsistent approaches to what the CDA
means for a claim to treat a defendant website operator
as a publisher or speaker of third-party content such that
CDA protection should be afforded. Petition, 22-29.
III. The Allegations In The Complaint Are About
Armslist’s Own Intentional And Negligent Conduct
And Content
Armslist incorrectly recasts Yasmeen’s case as
focusing on “the publishing of information provided by
private third-party gun sellers.” Opposition, 2. However,
Yasmeen is not seeking to impose liability on Armslist
for publishing information provided by third parties.
Rather, she seeks to impose liability based on Armslist’s
own conduct and content. The word “publish[]” appears
only once in the Complaint, and that reference deals not
with publishing information provided by third-party gun
sellers, but rather to the results of an investigation into
Armslist published by The New York Times. Complaint
¶ 80. No matter how hard Armslist tries to twist the words
in Yasmeen’s complaint, the gravamen of her theory of
liability is that Armslist negligently and intentionally
created, designed and marketed a website and content
specifically to attract, facilitate and enable persons who
are prohibited from buying firearms to obtain firearms

9
in violation of federal and state laws. See Petition, 2-4.
Nothing in the CDA’s language indicates that Armslist
is immune for such conduct.
The Wisconsin Court of Appeals agreed as much,
holding that Yasmeen’s “liability theory is not based
on treating Armslist as the publisher or speaker of
information content created by third-parties.” App. B, 61a.
Instead, all of Yasmeen’s allegations are about Armslist’s
own bad acts and the content it created for its website.
Thus, the Wisconsin Court of Appeals held, correctly,
that “the pertinent language in the Act prohibits only
theories of liability that treat Armslist as the publisher
or speaker of the content of Linn’s or Radcliffe’s posts on
the website, and . . . the complaint here relies on no such
theory.” App. B, 57a.
IV. The Wisconsin Supreme Court Failed To Consider
This Court’s Federalism Principles
This case also warrants review because the Wisconsin
Supreme Court’s decision is inconsistent with this Court’s
federalism precedent, which required the Wisconsin
Supreme Court to narrowly construe the CDA, but which
that court ignored. Petition, 29-32. Armslist contends that
the Wisconsin Supreme Court’s decision does not conflict
with this Court’s federalism precedent because “[t]he
CDA indisputably preempts state-law causes of action”
and “[t]he statutory language that this Court considered
in cases on which petitioner relies…did not expressly
preempt state-law causes of action.” Opposition, 9. But
the “presumption [against preemption] reinforces the
appropriateness of a narrow reading” of the “scope” of the
preemption even where the statute’s “express language”

10
mandates some degree of preemption, Cipollone v.
Liggett Group, 505 U.S. 504, 517-18 (1992); Medtronic,
Inc. v. Lohr, 518 U.S. 470, 485 (1996). As the Wisconsin
Court of Appeals found, reading the CDA consistent with
federalism principles, “Congress limited immunity to a
single circumstance: when a theory of liability treats the
website creator or operator ‘as the publisher or speaker of
any information provided by another information content
provider.’” App. B, 63a (quoting 47 U.S.C. § 230(c)(1)).
Armslist’s latter point is simply wrong. Medtronic, Inc. v.
Lohr, 518 U.S. at 484 (“As in Cipollone v. Liggett Group,
Inc.…we are presented with the task of interpreting a
statutory provision that expressly pre-empts state law.”).
Armslist also mischaracterizes the Wisconsin Supreme
Court’s ruling regarding federalism. The Wisconsin Court
of Appeals held that the presumption against preemption
and federalism principles dictated an interpretation of the
CDA which allowed for Yasmeen’s case to move beyond
the pleadings stage. App. B, 58a-59a. Faced with this
analysis, the Wisconsin Supreme Court reversed the
Wisconsin Court of Appeals without addressing or even
mentioning either argument, and its decision is plainly
contrary to this Court’s federalism precedent. App. A. Had
the Wisconsin Supreme Court considered the principles
of federalism, there would be no basis for its ruling. The
fact that most other courts grappling with the CDA have
failed to deal with the presumption against preemption
and federalism issues—likely because they have not been
raised—provides greater reason why this Court should
grant review. This Court’s federalism precedent should
be followed when applying the CDA, particularly where,
as here, disregarding these issues results in decisions
that are contrary to the plain language of the statute.
Petition, 29-35.

11
V. The CDA Has A Profound Impact On The Everyday
Lives Of All And Its Meaning Should Be Resolved
Armslist’s silence on the CDA’s impact is deafening.
As shown by the hundreds of CDA-related cases filed
in jurisdictions across the country against companies
including Google, Facebook, Amazon, AOL, Yahoo,
eBay, Airbnb, Yelp, HomeAway, MySpace, Craigslist,
Tripadvisor, Stubhub and Grindr, the CDA implicates some
of the most high-profile companies affecting the daily lives
of most Americans. The implications of having inconsistent
interpretations of the CDA are vast and far-reaching.
By way of example, the Third Circuit recently granted
a petition for rehearing en banc and vacated a decision
addressing whether the CDA bars certain product liability
claims against Amazon. Oberdorf v. Amazon.com Inc., 930
F.3d 136 (3d Cir. 2019), reh’g en banc granted, opinion
vacated, 936 F.3d 182 (3d Cir. 2019). If the Third Circuit
sitting en banc reaches a decision contrary to the one it
recently vacated, Amazon will be shielded by the CDA in
the Third Circuit, but not in the Fourth Circuit. Erie Ins.
Co. v. Amazon.com, Inc., 925 F.3d 135 (4th Cir. 2019).
Lower courts across the country are grappling with
the inconsistencies in CDA jurisprudence, coming to
different conclusions in cases involving claims against
the same companies. Cf. Maynard v. Snapchat, Inc., 346
Ga. App. 131, 816 S.E.2d 77 (2018) (allowing claim where
plaintiffs sought to hold Snapchat liable for creating a filter
which plaintiffs’ daughter (a third-party) was using, that
resulted in her fatal car crash); Grossman v. Rockaway
Twp., Docket No. MRS-L-1173-18, 2019 N.J. Super.
Unpub. LEXIS 1496 (N.J. Superior Ct. June 10, 2019)
(finding Maynard “inapposite” in holding that Snapchat
was entitled to CDA immunity). Thus, how the CDA is

12
interpreted is important to clarify the legal landscape for
potential defendants across the country.
CONCLUSION
For the foregoing reasons, and the reasons set forth
in the Petition, the petition for writ of certiorari should
be granted.
Respectfully submitted,
Jonathan E. Lowy
Samantha J. K atze
Brady
Counsel of Record
840 First Street, NE,
Jacqueline C. Wolff
Molly K. Wyler
Suite 400
Manatt, Phelps & Phillips, LLP
Washington, DC 20002
7 Times Square
(202) 870-8100
New York, New York 10036
Patrick O. Dunphy
(212) 790-4500
Brett A. Eckstein
skatze@manatt.com
Cannon & Dunphy, S.C.
595 North Barker Road
P.O. Box 1750
Brookfield, WI 53045
(262) 780-7188
Counsel for Petitioner

